Nos. 19-108 & 19-184

 

 

IN THE
Supreme Court of the United States

UNITED STATES, Petitioner,
Vv.

MICHAEL J.D. BRIGGS, Respondent.

UNITED STATES, Petitioner,
Vv.

RICHARD D. COLLINS, Respondent.
UNITED STATES, Petitioner,

v.
HUMPHREY DANIELS III, Respondent.

On Writs of Certiorari to the United States
Court of Appeals for the Armed Forces

BRIEF OF THE NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE LAWYERS AS AMICUS
CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,526 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2020.

Lu,

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
